          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




     IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
     Audit of GSA’s Transition from FTS2001 to Networx
     Report Number A110086/O/F/F11007
     September 22, 2011
     Assignment Number A130118
     September 30, 2013




A130118
Background

On September 22, 2011, we issued an audit entitled Audit of GSA’s Transition from
FTS2001 to Networx to the Chief Information Officer. The FTS2001 program was
designed to provide government users with up-to-date, cost-effective, and easy-to-use
telecommunications services.       The initial FTS2001 contracts were awarded in
December 1998 and January 1999. Networx, the replacement to the FTS2001
program, is designed to offer best value for federal agencies.

Bridge contracts were awarded to prevent a lapse in telecommunication services after
the FTS2001 contracts expired in December 2006 and January 2007, before federal
agencies fully transitioned to Networx. These bridge contracts were extended several
times because a significant number of agencies, including GSA, had not completed their
transition. The GSA OCIO was responsible for transitioning GSA’s telecommunications
services to Networx from FTS2001. In this process, the OCIO relied on the Federal
Acquisition Service to assist with transitioning external customer agencies housed in
GSA facilities. At the time of the audit, the OCIO was still transitioning GSA to Networx
and consequently, was included in the bridge contracts.

Our audit found GSA’s management of the transition process adversely impacted its
timely transition to Networx. To address the issues identified in the report, we
recommended that the Chief Information Officer:

   •   Establish an inventory and an inventory management and validation system to
       ensure that telecommunications inventory records remain accurate.
   •   Document identified internal setbacks, obstacles encountered, and the lessons
       learned during the transition from FTS2001 to Networx to facilitate the execution
       of future transitions.

The Chief Information Officer agreed with the report recommendations.

Results

The results of our implementation review indicate that the Chief Information Officer has
taken appropriate corrective actions to address our recommendations. We determined
that no further action is necessary.




A130118                                 2
Appendix A – Action Plan for Report Number A110086/O/F/F11007




A130118                     A-1
Appendix A – Action Plan for Report Number A110086/O/F/F11007
(cont.)




A130118                   A-2
Appendix B – Report Distribution
Chief Information Officer (I)

Commissioner, Federal Acquisition Service (Q)

Director, Management and Oversight Division (H1C)

Audit Liaison, Office of Chief Information Officer (I)

Assistant Inspector General for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy and Operations Staff (JAO)




A130118                                  B-1
